/*■

NO.
V^ —

IN

.

■

f

THE

i.

'i

Supreme Court, U.S"
FILED

SUPREME COURT OF THE UNITED STATES

OCT 2 0 2020
OFFICE OF THF PICPK

JULIO TORRES PALOMO-PETITIONER
VS.

LORIE DAVIS,DIRECTORtRESPONDENT(S)
TEXAS DEPARTMENT OF CRIMINAL JUSTICE
CRIMINAL INSTITUTIONAL DIVISION
ON PETITION FOR A WRIT OF CERTIORARI
TO
UNITED STATES COURT OF APPEALS
THE FIFTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
JULIO TORRES PALOMO
# 1923341
MC CONNELL UNIT
3001 S. EMILY DRIVE
BEEVILLE,TEXAS 78102

RECEIVED
JAN 2 2 2021
\ '
4^

« .

4

QUESTION PRESENTED
FORMAL REQUISITE OF AN INDICTMENT:
THE INDICTMENT FAILED TO PROPERLY ALLEGE THE OFFENSE,AS WRITTEN
IN THE TEXAS PENAL CODE ANN. § 21.02.
INSUFFICIENCY OF THE INDICTMENT:
WHERE INDICTMENT/JURY CHARGE"DO NOT" FACIALLY ALLEGE THE OFFENSE,
THIS REVIEWING COURT MUST TAKE INTO CONSIDERATION "NOT ONLY THE!
INDICTMENT/ JURY CHARGE,BUT ALSO CONTROLLING PENAL PROVISIONS
AND JURY INSTRUCTIONS'.'
SUFFICIENCY CHALLENGES-FACTUAL INSUFFICIENCY:
THE EVIDENCE IS INSUFFICIENT TO ESTABLISH FACTS OF V,CONTINUOUS
SEXUAL ABUSE AGAINST A CHILD YOUNGER THAN 14 YEARS OF AGE" OR
A LESSER INCLUDED OFFENSE OF "INDECENCY WITH A CHILD BY CONTACT"
THAT IS NOT LISTED IN THE ORIGINAL INDICTMENT OF THE COMPLAINT.
FAILURE TO TRACK INDICTMENT IN THE JURY CHARGE:
"NOT TRACKING THE EXACT LANGUAGE OF THE MANNER AND MEANS ALLEGED
IN THE INDICTMENT".
AMENDMENT OF THE INDICTMENT:
TRIAL COURT FAILED TO EFFECTIVELY AMEND INDICTMENT OF PEOPLE'S
COMPLAINT.
FACTUAL SUFFICIENCY STANDARD OF REVIEW:
THIS COURT IS CONSTITUTIONALLYEEMPOWERED TO REVIEW THE JUDGMENT
OF THIS COURT TO DETERMINE THE FACTUAL SUFFICIENCY OF THE EVIDENCE
USED TO ESTABLISH THE ELEMENTS OF THE OFFENSE.
NO EVIDENCE DOCTRINE:
v
V.

THUS SECURES AN ACCUSED THE MOST ELEMENT'S OE DUE PROCESS RIGHT'S;
"FREEDOM FROM WHOLLY ABITRARY DEPRIVATION OF LIBERTY".
PREJUDICE:
THIS COURT SHALL HOLD TRIAL COURT ERRED IN ADMITTING THE COMPLAINED
ABOUT EVIDENCE.
HARM ANALYSIS:
"ONE DOES NOT LOOK AT THE TAINED EVIDENCE,BUT AT THE UNTAINED
EVIDENCE"AND ASK'S WHETHER IT ALONE COMPELS A VERDICT OF GUILT.
FIELD ASSESSING THE HARMFULNESS OF A FEDERAL CONSTITUTIONAL
ERROR(S).
WAS THERE OVERWHELMING EVIDENCE OF GUILT ? THAT WAS NOT TAINED/
TURNISHED BY ERROR j|S) .
i.a

EGREGIOUS HARM:
REVERSAL IS REQUIRED,SHOULD THE ERROR(S)fWERE CALCULATED TO INJURE
THE RIGHT'S OF THE ACCUSED.
SUBSTANTIAL EVIDENCE/SUFFICIENCY OF EVIDENCE:
THIS APPELLATE COURT MUST DETERMINE WHETHER THE EVIDENCE AT TRIAL
WOULD ENABLE A REASONABLE AND FAIR MINBp PERSON TO FIND THE FACTS
AT ISSUE,THAT THE EVIDENCE WAS SUFFICIENT TO SUPPORT A CONVICTION.
FACTUAL SUFFICIENCY REVIEW:
APPELLANT CHALLENGES THE LEGAL SUFFICIENCY OF THE EVIDENCE TO
OVERTURN HIS CONVICTION AS BOTH EVIDENCE AND TESTIMONY ARE FACT­
UALLY INSUFFICIENT.
VARIANCE,PROOF ELEMENT:
THE EVIDENCE IS INSUFFICIENT,BECAUSE OF THE FATAL VARIANCE BETWEEN
THE INDICTMENT AND PROOF AT TRIAL.
PRESERVATION FOR REVIEW:
IF ERROR(S) ARE SO • • •EGREGIOUS AND CREATE SUCH HARM THAT IT IS
FAIR TO SAY THE ACCUSED DID NOT,HAVE A FAIR AND IMPARTIAL TRIAL.
LEGISLATION INTERPRETATION:
IF A STATUTE MAKE'S EACH ‘'VIOLATION",A SEPARATE ELEMENT(STATUTE/
JURY CHARGE)THE GOVERNMENT "DID NOT" PROVE THESE ELEMENTS,THERE
FORE THIS REVIEWING COURT SHALL REVERSE AND REMAND FOR FACTUAL
INSUFFICIENCY AND GRANT A NEW TRIAL.
REVERSIBLE ERROR'S:
REVERSIBLE FOR FACTUAL SUFFICIENCY:
THERE IS SOME OBJECTIVE BASIS IN THE RECORD THAT SHOWS THE GREAT
WEIGHT AND PREPONDERANCE OF THE EVIDENCE WHICH CONTRADICTS THE
JURY'S VERDICT,THAT SHOCK'S THE CONSCIENCE,OR CLEARLY DEMONSTRA­
TES, BIAS AND PREJUDICE.
EXPERT WITNESS TESTIMONY/ ALLEGED INTERPRETER:
A HEARING MUST,TAKE PLACE BEFORE HER TESTIMONY CAN BE ADMITTED.
NO HEARING ?
NO EDUCATION,STUDY OR TECHNICAL WORK,OR COMBINATION:
BEING BORN HISPANIC,FOR FORENSIC INTERVIEW OF VICTIMIZED CHILDERN
OF SEXUAL ABUSE,DOES NOT MAKE ONE AN EXPERT.
RELIABILITY STANDARD:
RULE 702,TEX,R.CIV. EVID.,A RELIABILITY STANDARD NOTING THAT THE
GOAL OF ROUTING OUT BOGUS EXPERT'S OPINION'S.
i.i.

1°

HEARSAY GROUND:
APPELLANT OBJECTED TO HEARSAY,REQUESTED MISTRIAL,DENIAL.
EXPERT TESTIMONY:
APPELLANT COMPLAIN'S ABOUT ALLEGED EXPERT TESTIMONY AND INTRO­
DUCTION OF NON-INTERPRETED FORENSIC VIDEO. APPELLANT ALSO DIS­
PUTES THIS INTERPRETER'S RELIABILITY.
OUTCRY STATEMENT:
APPELANT ASSERTS THAT TRIAL COURT ERRED IN ADMITTING VIDEO AND
TESTIMONY OF CLAUDIA ALVARADO(ALLEGED EXPERT TRANSLATER)REGARDING
COMPLAINANT'S OUTCRY STATEMENT.
DAUBERT CHALLENGEe
NURSE ROSELYN ANGLIN,R.N • / S.A.N.E.(SEXUAL ASSAULT NURSE EXAMINOR)
TESTIMONY REGARDING ALLEGED PENETRATION''1 AND IT'S ACCOMPANYING
ALEEGATIONS "NO TRAUMA" WAS DISCOVERED.
SEXUAL ABUSE/ASSAULT:
NURSE ANGLIN IS SAID TO BE THE STATE'S EXPERT WITNESS.
IT IS SAID THAT THE COMPLAINANT'S ANUS RETRACED IN AN ABNORMAL
20 SECOND'S,HOWEVER THAT THEIR COULD HAVE BEEN A STOOL THERE.
BLACK LETTER OF THE LAW:
A PERSON "MAY NOT PRACTICE MEDICINE IN THIS STATE,UNLESS THAT
PERSON HOLDS A LICENSE TO PRACTICE MEDICINE".
LICENSE TO PRACTICE MEDICINE: MEANING UNDER OCC.CODE ANN § 155.
001, THE DIAGNOSES,TREATMENT,OR OFFER TREATMENT OF MEDICAL,OR
PHYSICAL DISEASE,OR A PHYSICAL DEFORMITY OR INJURY.
PROFESSIONAL NURSING:
SUBSTANTIAL SPECIALIZED JUDGMENT AND SKILL,THIS TERM DOES NOT,
INCLUDE ACT'S OF MEDICAL DIAGNOSES.
PROHIBITED BY LAW:
UNILATERALLY MAKING A DIAGNOSES.
HEARSAY OBJECTION'S:
APPELLANT COMPLAINED AT TRIAL COURT ERRED IN OVERRULING HEARSAY
OBJECTIONS TO STATEMENTS FROM BOTH COMPLAINTANT'S,SPECIFICALLY
APPELLANT COMPLAINED THAT(ALLEGED TRANSLATER)MS.ALVARADO "DOES
NOT" HOLD A LICENSE,CERTIFICATION,EDUCATION,SKILL,NEEDED TO
PROPERLY ASSIST IN A FORENSIC INTERVIEW OF A CHILD SEXUAL ABUSE
CASE. "SHE CIRCUMVENT QUESTIONS AND ANSWERS TO GATHER INTENDED
RESULTS.

iii.

Il

THIS COURT MUST CONSIDER THE FOLLOWING FACTOR'S IN EVALUATING
EXPERT'S RELIABILITY:
1.ACCEPTANCE BY RELEVANT SCIENTIFIC COMMUNITY;
2. QUALIFICATIONS OF THE EXPERT;
3.LITERATURE POTENTIAL CONCERNING THE TECHNIQUE;
4.POTENTIAL RATE FOR ERROR OF THE TECHNIQUE;
5.THE AVAILABILITY OF OTHER EXPERT(S);
6.THE CLARITY WITH WHICH THE UNDERLYING THEORY OR TECHNIQUE;
6.AN BE EXPLAINED IN THE COURT;
7.EXPERIENCE AND SKILL OF THE PERSON APPLYING THE TECHNIQUE.
AGENTS OF THE STATE/DISCOVERY PURPOSES:
THE PRIMARY PURPOSE OF THE STATE AGENTS INTERVIEW,THEY WORK IN
CONJUNCTION WITH LAW ENFORCEMENT TO GATHER EVIDENCE FOR CRIMINAL
PROSECUTION.
REVERSIBLE ERROR:DISCOVERY:
1.THE STATE FAILED TO DISCLOSE EVIDENCE(PRIOR VIDEO TAPE);
2.THE STATE WITHHELD EVIDENCE IN FAVOR OF THE ACCUSED;
3.EVIDENCE WITHHELD IS MATERIAL WITH A REASONABLE PROBABILITY
THAT HAD EVIDENCE(INTERPRETER VIDEO)FOR DECISION OF ADMISSIBILITY
HAD BEEN DISCLOSED THE OUTCOME WOULD HAVE BEEN DIFFERENT.
THERE WAS NO PROOF OF SEXUAL ABUSE IN PRIOR VIDEO;
ABUSE OF DISCRETION:
TRIAL COURT ABUSED IT'S DISCRETION BY NOT ADMITTING A DR.PENA
AS THE PROPER OUTCRY WITNESS,TEX.CODE CRIM.PROC. ART.38.072 § 2
fA);RATHER THAN COMPLAINANT'S AUNT MARISOL; PSYSHiSTRiST(DGCTOR
PENA)IS THE:PRIMARY-OUTCRY WITNESS.

1<V'.

ix

LIST OF PARTIES
ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE.

15

TABLE

OF

CONTEXT
pg. i.
pg.ia-iv.

LIST OF PARITIES
QUESTIONS PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

pg. v.
pg. vi-\*lii.
pg. 1-20.

STATEMENT OF FACTS
REASONS FOR GRANTING PETITION

pg. 21.

COURT OF CRIM.APP
COURT OF CRIM.APP.

APPENDIX A.
APPENDIX B.

COURT
COURT
COURT
COURT

APPENDIX
APPENDIX
APPENDIX
APPENDIX

OF
OF
OF
OF

CRIM.APP.
CRIM.APP.
CRIM.APP.
CRIM.APP.

C.
D.
E.
F.

COURT OF CRIM.APP.
COURT OF CRIM.APP.
COURT OF CRIM.APP.

APPENDIX G.
APPENDIX H.
APPENDIX I.

COURT OF CRIM.APP.

APPENDIX J.

COURT OF CRIM.APP.
COURT OF CRIM.APP.

APPENDIX K.
APPENDIX L.

UNITED STATES COURT OF APPEALS FIFTH CIRCUIT

pg.22.
pg.23.
pg.24.
pg.25.
pg.26.
pg.27.
pg.28.
pg.29.
pg.30.
pg.3i.
pg.32.
pg.33.
APPENDIX M.

pg.34.

UNITED STATES DISTRICT COURT NORTHERN DID STRICT APPENDIX N. pg.35.
UNITED STATES DISTRICT COURT NORTHERN DISTRICT APPENDIX O. pg.36.
UNITED STATES DISTRICT COURT NORTHERN DISTRICT APPENDIX P & Q. pg.37&39.
JURISDICTION
OPINION

pg.39.
pg.40.
pg.4i.

CONCLUSION
PROOF OF SERVICE

pg.42.

v.

TABLE OF AUTHORITIES
TEXAS PENAL CODE ANN. § 21.01
TEXAS CODE OF CRIM.BROC. ANN. § 1.14(b)

pg. 1.

TEXAS RULES APPELLANT PROC.RULE 44.2(a0!
TEXAS RULES APPELLANT PROC.RULE 44.2(b)

pg.3.
pg.6.

TEXAS RULES APPELLANT PROC.RULE 81(b),(2)
TEXAS CHAP. $2,CRIM.CODE PROC.
TEXAS GOV.T. CODE ANN. 311. Oita),(1992)

pg • 6.
pg. 8.
pg. 9.

TEXAS CODE CRIM. PROC. § 36.19(Supp.2009)

pg • 9.
pg.10.
pg.11.
pg.12.

TEXAS RULES CIVIL EVID.RULE 702
TEXAS RULES APPELLANT PROC.ART 33.1 (a)
TEXAS CODE CRIM. PROC. ART. 38.072
TEXAS RULES EVID, 104(a),(c),RULE 702
TEXAS NURSING PRACTICE ACT,NPA,3.6 (4th Ed. 1999)
22 TEXAS ADMIN.CODE § 217.11(2),(b),(4),(2),(2001)

pg.l.

pg. 15 .
pg.14.

TEXAS OCC.CODE ANN. § 301.002(2)
BOARD OF NURSING LICENSURE PEER ASSIST.& PRAC.

pg. 4.
pg. 14.
pg.14.

TEXAS OCC.CODE ANN. 151.002

pg. 15

TEXAS SENATE BILL 1161 MleHEAL MORTON ACT
125 UNIV.PENN,L.R.(1976)

pg. 19 .
pg.6.

UNITED STATES CONSTITUTIONAL AMENDMENT;FIFTH,SIXTH & FOURTEENTH pg.13.

VI.

TABLE OF AUTHORITIES
ADAMS V STATE, 180 S.W.3d 341 (Tex.App.- Corpus Christi 2005) pg.19.
pg.9.
ADfiERly V. FLORDlA, 93 S.Ct. 2199
pg • 7.
ALMANZA V. STATE, 686 S.W.3d 157(1985)
pg.3.
ARCEMENT V. STATE, 2009 TEX.App. Lexis
pg.19.
BRADY V.MARYLAND, 373 U.S. 88 (1963)
BRYANT V. STATE, 340 S.W. 3d 1,Tex.App.- Hous.lst.- dist.2010 pg.13.
pg.131
CABRERA V. STATE, 2014 Tex.App.Lexis 7033
pg • 4.
CAIN V. STATE, 958 S.W.2d 408
pg.18.
CANTU V. STATE, 817 S.W.2d 74 (Tex.Crim.App. 1991)
pg
• 4.
CLEWIS V. STATE, 922 S.W.2d 129
pg.
7.
COLE V. ARKANSAS,68 S.Ct. 514
pg.15.
DAUBERT V. MERRELL DOW PHAR.INC. 113 S.Ct, 2786
DOTSON V. STATE,146 S.W. 3d 291(Tex.App.- Ft.Worfchh2009)
pg • 5..
pg.l.
DURON V.STATE, 956 S.W.2d 547 (Tex.Crim.App. 1991)
pg.18.
ESTELLE V. STATE, lGKD'.S.Ct. 1866(1981)
pg.10.
ET.DU PONTTNEMOUS & CO. V. ROBINSON,
pg-6*
FAHY V. CONNECTICUT, 84 S.Ct. 229(1963)
3d
177
(Tex.App.Hous.14th
dist.2001)pg.13.
GREGORY V. STATE, 56 S.W.
pg.15.
HARTMAN V. STATE, 946 S.W. 2d 60 (Tex.Crim.App. 1992)
pg. 4.
HOYOS V.STATE, 841 S.W.2d 419(Tex.Crim.App. 1998)
pg.10.
IN RE AIR CKASHHDISASTER 795 F.2d 1234
pg.4 ^.
JACKSON V. VIRGINA, 99 S.Ct. 2786 1970'):
JOHNSON V.STATE, 23 S.W. 3d 1(Tex.Crim.App. 2000)
pg. 4.
pg.4. ...
JONES V. STATE, 944 S.W. 2d 642 (Tex.Crim.App. 1996)
pg.17.
JORDAN V. STATE, 928 S.W.2d 550(Tex.Crim. app. 1994)
pg.11.
KELLY V. STATE, 824 S.W.2d 572
pg.4.
LLAMES V. STATE, 3524 S.W. 3d 469 (Tex. Crim. App. 2000)
pg.12.
LONG V. STATE, 800 S.W.2d 546(Tex. Crim.App. 1990)
pg.11.
LUBOJASKY V. STATE, 2012 Tex.App.Lexis 176
pg.18.
MATHIS V. UNITED STATES, 88 S.Ct. 1501(1968)
MONTOYA V. STATE, 840 S.W.2d 419 (Tex.Crim.App.- Dallas(1994) pg.4.
MOTILLA VB STATE, 38 S.W.3d 826 (Tex.App.Hous.- 14th dist.2001)pg.3.
pg.4.
MOTILLA V.STATE, 78 S.W.3d 355 (Tex.Crim.App.2002)
pg.12.
MUELLA V.BRAN, 2013 Tex.App. Lexis 176
NATIONAL BANK V.NORTHLAND,922 S.W.2d 950(Tex.1996)
pg.19.
pg.4.
NEMO V. STATE, 970 S.W.2d 561
OWENS V. STATE, 381 S.W.3d 696(Tex.App.Lexis 7922)
pg.19.
pg.19.
PENA V.STATE, 353 S.W. 3d 797 (Tex.Crim.App. 2011)
pg. 7.
PRISNEELVV. GEORGIA, 99 S.Ct. 235
pg.4.
PRYSTASH V.STATE, 3 S.W. 3d 522 (Tex.Crim.App.1999)
ROSE V.STATE, 2 S.W.3d 225 (Tex.Appm-rAAustin 1999)
pg.17.
pg.13.
RUSSEAU V.STATE, 171 S.W.3d 871(Tex.Crim.App. 1999)
RWH HOMEBUILDERS V. BLACKDIAMOND DEVEL. 2015 Tex.App. Lexis 8876 pg.7.
SIMS V.STATE, 99S.W.3d 600 (Tex.Crim.App. 2003)
pg. 5.
pg.19.
SOUTH TILE INS.CO. V. DULING, 522 S.W.2d 425(Tex.1977)
pg.9.
TABER V.ROUSH, 2010 Texs App..Lexis 2827
pg.13.
TERRAZE V.STATE, 4. S.W.3d 720 (Tex.Crim.App. 1999)
TEXAS EMPLOYER INS.ASS. V.SAUCEDA, 636 S.W.2d 494TTex,App.pg.14.
San Antonio (1982$
THOMAS V. STATE, 841 S.W.2d 399 (Tex. Crim.App. 1999)
pg.19.
pg.20.
UNITED STATES V. BAGLEY, 105 S.Ct. 3375 (1985)

vii

CON"T.

TABLE OF AUTHORITIES

pg.9.
U.S. V. JOHN,579 F.3d 1799(2004)
pg.9.
UNITED STATE V. VALANCE, 600 F.3d 389 (2010)
pg.4.
VACHON V. NEW HAMPSHIRE, 94 S.Ct. 669
VELA V.STATE, 159 S.W.3d 181 (Tex.Crim.App. - Corpus Christi
pg.2.
2004
pg. 16 .
VELA V. STATE, 209 S.W.3d 128 (Tex.Crim.App. 2006)
pg.4.
WEATHERRED V. STATE, 15 S.W.3d 543 $Tex.Crim.app. 2000)
pg.6.
WEBB V. STATE, 36 S.Wd 3d 138
WILKSON V. State, 173 S.W.3fl252lTex.Crim.App. 2005)
pg. 18.
WILKSON V. STATE, 23 S.W. 3d 590 (Tex.CrAm.App. 2005)
pg. 19 .
WYATT V.STATE, 23 S.W.3d 18(Tex.Crim.App. 2000)
pg.20.
ZUNGIA V. STATE, 144 S.W.3d 477 (Tex.Crim.App. 2004)
pg • 5.

VIII.

STATEMENT

OF

iFACTS-CASE

THE FORMAL PREREQUISITE OF AN INDICTMENT:

State,956 S.W.2d 547(Tex.Crim,App.1997).
Appellant as in Duron v._______
Point of error,the indictment failed to properly allege the offense
of ''Continuous-Sexual Abuse Against a Child Younger Than 14 Years
ofAgej' as is written in the Texas Penal Code Ann" 5 21.02.
The indictment must set-out a particularly and appear
clearly
in the record that defendant had been convicted of the statuHed
offense listed. "Continuous Sexual Abuse Against A Young ChildV
is "Not" an offense listed in the Texas Penal Code as directed
by Constitutional requirement of the Texas Constitution art.5
§ 12.
The indictment must "NOT BE" compromised,but fully composed in
the charge which the State's Attorney intends to gain a conviction
and no less,as the Legislature had intended.
Therefore,this charging instrument/information and jury charge
must charge:
1. A person;
2. With the commission of the proper offense,as is written by
the legislature,and"NOT" make a reasonable person guess at the
meaning;
As it violates the Texas Constitution of art. 5 § 12 and the
Fifth and Fourteenth Amendments of the United States Constitution,
of Due Process and Equal protection under law.
The indictment should have sufficient information to support
the charge and conviction,of all the elements of the alleged
offense which should be measured by this Appellate court. What
is the intended charge is "NOTV just a watered down version of
The staute as is posted in the jury charge.
•Not all indictments defects are"matters -of substance ;which a
defendant must object to before the Court or lose his rights
to complain about it in his appeal,some defects and jury charges
remove the waiver from ambit of the Texas Code of Criminal Crim­
inal Procedure Ann. art. 1.14(b),because the State rendered the
charging instrument, "A Non-Indictment
This Appellate Court perhaps,the State may claim,the Texas Code
of Criminal Procedure Ann. art. 1.14(b). As defense Attorney
failed to object to form or substance of the indictment/information
therefore,defendant waives/waived his right to complain about
this issue on appeal, Excuse me !!
I certainly beg to differ,defense counsel made a timely complaint
about this issue at trial. "Not allowing a substantial/meaningful
pre-trial hearing'.' Defense Counsel was only given a few minutes
to confer with his client,then was told by the trial court,"you've
had your pre-trial hearing" Excuse Me !! May this be duly noted
for the record,since my trial Attorney was not allowed to do
otherwise.

l.

The Texas Constitution art. 5 § 12,states: "A pleading which
does not actually charge a person with the commission of an offense
is NOT, an indictment with in the meaning of the Texas Constitution.
"Therefore,any conviction based upon such instrument,is "Not
merely
if£e§ful!¥ and V§3=d in it's contents and
should be reversed and remanded for a new trial'.'
INSUFFICIENCY OF THE INDICTMENT:
In fisher v. State, 887 S.W.2d 49(Tex.Crim.App. 1994).
Where indictment/jury charge "do not, facially allege the offense,
this reviewing court must take into consideration " Not only
the indictment/jury charge,but also,the controlling penal pro­
visions and jury instructions'.'
Reviewing sufficiency of the evidence,also bind with Due Process
principals of notice and given a fair opportunity to defend.
An indictment must be "Constitutionally valid'.' A written instru­
ment which charges "A person with the commission of an offense,of
"Continuous Sexual Abuse;oF A Young Child" is'not*a Texas Penal
Offense.
This court did not, give proper notice to the defendant of the
alleged offence for which he was beingccharged. The Court of
Criminal appeals held an appeal could be based on error in sudstance of an indictment to which "No Objection',' had been made
at trial,stating;"Whatever is essential to the gravaman of the
indictment must be set-out particulary,that whatever it's clearly
apparent in the record that the defendant has been covicted on
an indictment this is clearly defective in substance,to include
a jury charge, an indictment that"did_not^'properly charge the
offense is 'Not an indictment'in terms of this States Constitution.
This appellant make this same argument.
SUFFICIENCY CHA1L1LENGES-FACTUAL INSUFFICIENCY:
Appellant contends the evidence is insufficient to establish
facts of "Continuous Sexual Abuse Against A Child Younger Than
14 Years of Age" or a Lesser Included Offense of'Indecency with
A Child by Contact; not listed in,:the original indictment of
the complaint. When examining the appellant's record,this court
should consider the following facts:
1. The evidence admitted;
2. Nature of the evidence supporting the verdict,including whether
the evidence was overwhelming;
3. Character of the alleged error(s);
4. Jury Instructions;
5. The State's and Defense theory(s);
6. Closing argument(s);
7. Voir direi/
8. Whether the State emphasized the error(s);
See,Vela v. State,159 S.W.3d 181(Tex.Crim.App.-Corpus Christ!

200477

2.

HARM ANALYSIS:
In, Motilla v. State,38 S.W.3d 826(Tex.App.Hous.-14th dist.2001).
78 S.W.3d 3 55 (.Tex. Crim.App. 2002). This court determined appellants
issues were meritous,and it must conduct a "Harm Analysis )'under
rules of Appellate procedure rule 44.2(a),. "Continuous Sexual
Abuse oF A young Child" as stated ira the jury charge,in closing
arguments,as the District Attorney of Hunt County,Texas continued
to insist that "They've met their burden of proof"without reasonable
doubt and the jury "MUST CONVICT "the accused of ."Continuous Sexual
Abuse Of A Young Child1.' W).iT5h is NOT,a Texas Penal Code Offense,
Muling the indistift^nt hftd j'jey charge VOID.
The evidence offered by the State,it's witness(es),is scant.
The court should be troubled,as is the appellant,that the adduced
testimony regarding the State's attempt to persuade the jury
to base it's verdict on sympathy and not on the facts of the
evidence(Sea closing argument).
Applying a harm analysis as is the requirement in rule 44.2 and
to evaluate the actual harm that any reasonable person would
believe it is of such a great magnitude that a reversal and remand
back to trial court is required.
FAILURE TO TRACK INDICTMENT IN THE JURY CHARGE:
Appellant agues the court erred by "Not tracking the exact lang­
uage of the manner and means alleged in the indictment'.'
The jury charge alleged "Continuous Sexual Abuse of A Young Child)'
The jury charge,does not track the actual statute language of
"Continuous Sexual Abuse Against A Child Younger Than 14 Years
Of .Age'.' Texas penal Code Ann. § 21.02.
The jury charge must allege the'same'means and manner as the
indictment,or this makes both the' indictment and jury charge
void. Therefore,Habeas relief should be Granted,and returned
to trial court for a new trial. See,Arcement v. State,2009 Tex.
App. Lexis 1096.
An appellate Court,reviewing factual sufficiency,has the ability
to second guess the jury to a limited degree. The review should
still be differential,with a high level of skepticism about the
jury's verdict.
This Appellate Court must first determine whether if error(s),exist
in the charge and if there is error(s),whether it produced
sufficient .harm from the error(s),to compel a reversal. "When
an error(s),occur and the trial court fails in it's duty to properly
instruct the jury,a review should be conducted under the Almanza,
standard'.' Id.
Under the Almanza standard,of review for error(s),also the jury
charge,depends on whether the defendant properly objected,if
so, a reversal and remand is required. If the error(s),.was cal­
culated to injure the right's of the accused.

*3^
3.

Normally,the best practice is to track the exact language of
the inductment,as a jury charge should contain all the elements
as required in the indictment.
The failure to track the exact language may not be an error in
it's self,however this indictment is "Factually Void and Insuffici p.nt.

In, Weatherred v. State,15 S.W.3d 543(Tex.Crim.App.2000).
Analysis under Rule 702,Texas rules of Evidence. The proponent
of the scientific evidence,must show"Clear and Convincing ProofV
that the evidence was admissible. See,Nemo v. State,970 S.W.2d
561.
The Appellate Court reviewing the trial court's ruling on admiss­
ibility of the evidence must utilized the abuse of "discretion
st andard. See,Prystash v. State, 3 S .W. 3j(522,527 (Tex.Crim.App. 1999 ) .
This Appellate Court must review the-trial court's ruling in
light of what was before the trial court at the time of the ruling
was made. See,Hoyos v.State,841 S.W.2d 419,422(Tex.Crim.App.1998).
AMENDMENT OF THE INDICTMENT:
Montoya v.State,841 S.W.2d 419(Tex.Crim.App.-Dallas? /994).Trial
Court failed to effectively amend the indictment of people's
complaint. This case was reversed and remanded back to trial
court as this case should be.
FACTUAL SUFFICIENCY STANDARD OF REVIEW:
As the court stated in Glewis,in it's progeny,"This Court is
Constitutionally empowered to review the judgment of this Court
to determine the factual sufficiency of the evidence used to
establish the elements of an offense.
In,Cain v. State, 958S.W.2d 408;Clewis v. State,922 S.W.2d 129,130
thiscourt should review evidence weighed by the jury that tends
to prove the existence of the elements/facts in dispute and compare
it with the evidence that tends to disprove that fact.
State,944 S.W.2d 642,647(Tex.Crim.App.1996).
In Jones v._______
In assessing the likelihood that the jury's decision was adver­
sely affected by the error(s),this reviewing court may also consider
the jury's instruction,the State's and defense theory and their
closing arguments. LLames v. State, 12 S.W.3d 469,471(Tex.Crim.App.2000);Motilla v.State,78 S.W.3d 355(Tex.Crim.App.2002).
In,Jackson v./Virginia, 99S.Ct. 2786(1970).This Court held in
Thompson,that a conviction based upon the record wholy devoid
any "Relevant Evidence"of a crucial element of the charge is
"Constitutionally Infirm"See, Vachon v. New Hampshire,414 U.S.
478,94 S.Ct.669; Adderly v. Florida,412 U.S. 430,93 U.S.2199.
The "NO Evidence Doctrine of Thomas v. i|,ouisville, thus secures
an accused the most element's of Due Process right's,"Freedom
from wholy arbitrary deprivation of liberty'.'
""
When determining factual sufficiency, a's in "Johnson v. State
23 S.W.3d 1(Tex.Crim.App.2000). .
!>C\

4.

The Corpus Christi Court of Appeals 978 S.W.2d 703,reversed and
remanded the findings of evidence insufficent.
This Appellate Court has a Constitutional authority to conduct
a factually insufficient review,from the evidence which is factually
insufficient,that is so weak to be clearly wrong and manifestly
unjust in it's adverse findings,which is so against the great
weight of the evidence,that this court of appeals should apply
the correct standard of review and consideration,which include all
©ihei’ireleverat' ; evidence. The only other recourse is of improper
application of a factual sufficiency review,which will lead to
reversal of this court of appeals decision and remand back to
trial court for a new trial.
In,determining the factual sufficiency of all elements of the
offense,this reviewing court views all evidence in a neutral
light,rather than in the light most favorable to the verdict,and
set aside the verdict because it is so contrary to the alleged
overwhelming weight of the evidence as to be clearly wrong and
unjust.
This Appellate Court reviews the evidence weighed by the jury
that tends to prove the existence of the elements of facts in
dispute and compares it with the evidence that tends to disprove
that fact.
PREJUDICE:
Motilla v. State, 38 S.W.3d 826 (Tex .App .Hous. 14th dist.20 10.)
Assuming arguendo that the evidence was relevent,this court
needs to find any probative value the evidence may have that
substantially outweighed by it's prejudice. See, Tex .R . E^/‘id. 403.
This court shall hold Trial Court erred in admitting the, complain-r: c
ed about evidence.
In,Zuniga v. State,144 S.W.3d 477,481(Tex.Crim.App.2004).
There two ways evidence maybe "Factually Insufficient";
1. The evidence suppoting the verdict or judgment,considered
by it's self is too weak to support the findings of guilt beyond
a reasonable doubt.
2. When there is evidence both supporting and contradicting the
verdict of judgment,weighing all the evidence,but the contrary
evidence is so strong that the guilt,cannot be proven beyond
a reasonable doubt.
See,Dotson v.State,146 S.W.3d 291(Tex.App.-Ft.Worth 2009).
"This standard of acknowledgement that the evidence of guilt
can"preponderate",in favor of conviction,but still be Insufficient,
disprove the elements'of the crime beyond a reasonable doubt.Id.
In other words,evidence supporting a guilty verdict can outweigh
the contrary proof hnd still be insufficient to prove the elements
with a reasonable doubt. Addressing factual sufficiency must
include a discussion of the most important and relevent evidence
to support this appellant's complaint on appeal. See,Sims v.State,
99 S.W.3d 600.603(Tex.Crim.App.2003).
5.

This Court must review the prosecutions comment's which constitutes
improper inference of appellant's guilt.
This reviewing Court must consider whether language used(closing
argument) was manifestly intended for the sole purpose of bias
and prejudicial intent of this appellant's guilt,which without
otherwise,this jury would notpaturally consider this beyond a
reasonable doubt that this accused is guilty of the alleged crime.
I should think not...(emphasis mine),Texas Code of Criminal Proc­
edure Ann. art.38.08.
In Kotteakos v.United States),328 U.S. 750,776,66 S.Ct. 1239(1946).
If the reviewing court is unsure whether the error(s),affected
the outcome,this court should treat the error(s), as harmful,i.e • /
as having a substantial injurious effect or influence in determining
the jury's verdict. See.Web,36 S.W.3d 183,Neither party has the
burden of proof under Rule 44.(b) .Rather Appellate Court will
examine the record for the purpose of determining harm.Id. King
v. State, 953 S.W.2d 266,271(Tex,Crim.App.1997).
HARM ANALYSIS:
Ih performiming-a harm analysis the easiest and consequenal,
the most convenient approach one could employ is to determine
whether the correct result was achieved dispite the error(sO,
this is commonly referred to as the"overwhelming evidence test"
one does not look at the~tained evidence but to^tfie^uritained ™
evidence,and ask whether it alone compels a verdict of guilt.
FIELD ASSESSING THE HARMFULNESS OF A FEDERAL CONSTITUTIONAL ERROR(S):
A process in need of a rationale: 125Univ.Pen.1,R.15(1976) .
Stated another way"was there overwhelming evidence of guilt,that
was'Not' "turnish * by-error’(s) ?
The Supreme Court cautioned that 7It is Not,the Appellant■Court
function to determine guilt of innocence. Id. at 763,66 S.Ct.
1247. Thus it is not so simple or appropriate to inquire;
"Would the Appellant have been convicted in any event" ? Fahy
v. Connecticut,375 U.S. 85,84 S.Ct. 229(1963).
The Supreme Court stated: "We are not concerned here whether
there was sufficient evidence,on which petitioner could have
been convicted without the evidence complained about" The question
is whether there was a reasonable possibility that the evidence
adduced at trial or lack of...Id. @ 88,84 S.Ct. 231.
As noted in Rule 81(b),(2),mandates this Appellate Court to focus
upon the error(s),and determine whether it can contribute to
the conviction and punishment,should that be found true.
This approach obviously implacates a review of the evidence(lack
of) but also concerns a sole trace of the impact of error(s).
In,Jackson v. Virginia,99 S.Ct. 2781(1979).
A challenge of a State conviction brought under Habeas Corpus
stattie which may require the Federal Court to entertain a State
prisoner,'r>..claim, that -he . ir> being held.in State custody in violation
6•

of the United States Constittuion or laws of this State. This
Appellant,is entitled to Habeas Corpus relief if it is found
upon the evidence,adduced at trdsal,that "No reasonable trier
of fact"could have found proof of guilt beyond a reasonable doubt
without prejudice and bias manipulation from the State's Attorney.
"It's,axiomatic that upon conviction a charge "NOT"properly made
or one upon a charge made,but "NOT"tried,which constitutes a
denial of Due Process.
In.Cole v. Arkansas,333 U.S. 196,201,68 S.Ct. 514,517,also,
Prisnell v. Georgia,438 U.S. 14,99 S.Ct. 235.! ! ,
These standards do no more than reflect a broader premise that
has never been doubted in our Contitutional system "That a person
cannot incurr the lost of liberty,without proper notice or meaning­
ful opportunity to defend self^'If not the right to a fair trial
itself'.' That a total want for evidence to (inclusive/conjuncture)
support the charge.
EGREGIOUS HARM:
Almanza jr. v. State,686 S.W.3d 157(1985) Tex.Code Criminal Pro­
cedure Ann. art. 39.19,contains the standard for both fundamental
error(s),and ordinary reversible error(s).
If the error(s), in the charge was the subject of a timely objection
reversal is required,should the error(s),was calculated to injure
the right's of this accused,which means some harm was made to
the accused from the error(s). In determining whether error(s),are
material,this court must look at the whole record bearing the
subject matfeer,was it overwhelming ?
Whenever,it appears in the record that any criminal action upon
appeal of the appellant;that any of the requirement's have been
disregarded the judgment shall not be reversed unless these error(s),
appearing from the record was calculated to injure the right's
of the accused,which this record shall show this,that accused
"did not," have a fair trial. All objections were made in a timely
fashion and denied.
SUBSTANTIAL EVIDENCE/SUFFICIENCY OF THE EVIDENCE:
RWH Homebuilders v. Black Diamond Development;2015 Tex. App.
Lexis 8876.
This Appellate Court must determine whether the evidence at trial
would enable a reasonable and fair minded person to find the
fact at issue,evidence is sufficient when viewed:
1. There is a complete absence of evidence or vital facts ;
2. The Court is barred by rules of law or evidence from giving
weight to the only evidence offered to prove a vital fact;,
3. The evidence offered to prove a vital fact(s),is no more than
a mere scientilla,and all negitive;
4. The evidence established conclusively the opposite of the
vital fact(s):
FACTUAL SUFFICIENCY REVIEW:
Appellate Court must consider and weigh all the evidence in a
''Natural Light". The evidence is factually insufficient.
y\%-

7.

If the Appellant Court concludes that the verdict is so...against
the great weight and the prepoderance of the evidence as to
be manifestly unjust,regardless of whether the record contains
some evidence of probated force in support of the verdict.
INSUFFICIENCY OF EVIDENCE:
Appellant challenges the legal sufficiency of the evidence to over­
turn his conviction as both evidence and testimony are factual­
ly insufficient due to testimony given by the alleged complainant
and other alleged witness(es),expert's which are not consistent.
No determination can be made as to "When the alleged incident
had taken place, if at ali'. . .
The indictment reads; VOn or About", September 1,2010 testimony
and jury charge make claim after September 1,2012.
The State nor it's witness(es),nor expert's can positively ident­
ify "When and if",These alleged offense(s),occurred,dispite what
the complainant's wish the jury to believe or not...(reasonable
doubt).
VARIANCE PROOF OF ELEMENT:
Montoya v. State,841 S.W.2d 419(Tex.Crim.App.-Dallas 1992).
As in Montoyo(Palomo)contends that the evidence is insufficient
because of a fatal variance between the indictment and proof
at trial,to include jury instructions and it's charge about the
element's of the alleged offense.
The jury found me guilty of "Continuous Sexual Abuse oF A Young
Child",which is |fot.>an offense of Texas Penal Code art. 21.02
which reads: "Continuous Sexual Abuse Against A Child Younger
$han 14 Years of Age'.'
Article 21.02 Subsec (e), states : "A defendant"maynot Vbe convicted
in the same criminal action of an offense listed under Sudsec.(c),
The victim of which is the same victim,as a victim of the alleged
offense under Subsec.(b),unless the offense is listed in Subsec.
(c) .
1. Is the charge in the alternative;
2. Ocurred outside the period in which the offense allege under
subsec.(b),or was committed;
3. Is considered by the trial court/trier of fact to be a lesser
included offense,of the offense alleged under subsec.(b).
A. A defendant"maynot"be charged with more than one count under
subsec.(b),if all the specific acts of sexual abuse that are
alleged to have been committed alleged to ha^e been committed
against the same victim.
B. If all of the specific acts of sexual abuse that are alleged
occurred to the youngest victim,it is ahfaffirmative defense
of the prosecution,if committed against more than one victim.
2. Did not use duress,force or a threat against the victim at
the time of the commission of any acts of sexual abuse■alleged,as
an element of the offense.
3. At the time of the commission of any of the acts of sexual
abuse alleged as an element of the offense.
a. Was not a person who under chapter 62,had a reportable cony#iCtion or adjudication for an offense under this section of

M3
8.

of sexual abuse as described by subsec.(c). Therefore,this court
must construe the statute to carry-out legislature intent.
787 S.W.2d 113,115(Tex.Crim.App.-Dallas 1990,NoPet.;Tex.Gov.
Code Ann. § 311.01(A).(Vernon Supp. 1992).
PRESERVATION FOR REVIEW:
The degree fo harm necessary for reversal,depends on whether
the appellant preserved the error(s),by objection.T.C.C.P. Ann.
art.36.19(Supp.2009). "Error(s),in the charge"if timely objected
to,this requires* ireversal.If the error(s),is so egregious and
create such harm that it is fair to say the accused,did not
have a fair and impartial trial.
LEGISLATION INTERPRETATION:
If a statue makes each "ViolationV’a separate element (statue/jury
charge)the government"did not"prove these elememts,this reviewing
court shall reverse and remand for factual insufficiency and
grant a new trial.
REVERSIBLE ERROR ( S ,)>:
Reversible for factual error(sO'/Sufficiency occurs when:
1. Evidence supporting the verdict is so weak the verdict seems
clearly wrong and manifestly unjust;
2. There is some objective basis in the record that shows the
great weight and preponderance of the evidence which contradicts
the jury's verdict,that shocks the conscience or clearly demostrates bias and prejudice.
EXPERT WITNESS,TESTIMONY,INTERPRETER:
In,United States V. Valance,600 F.3d 389(2010). The District
Court's are assigned a gatekeeper role to determine the addmissibility of expert testimony(to-wit),Spanish/English interpreter
testimony to acertain both relevent and reliable,"before it may
be admitted'.' meaning a hearing must take place before his/her
testimony can be admitted,whether a particular expert assert's
a causal or correlative testimony,but is’.closely tied to the
law,of fact's at issue. See,U.S. v^. John, 579 F3d 1799(2004).
Special knowledge which quality's a witness,training that gives
an expert an opinion may be driven from "special ?educatioft",
study or technical wotk,a combination,thereof...being born hispanic is not the basis for a forensic interview interpreter of
a victimized child of sexual abuse,and does not make one an
expert.(emphasis mine). See,Taber v. Roush,2010 Tex.App.Lexis
2827.
Expert testimony,is admissible when;
1. The expert is qualified(trial court did not,have a hearing
to qualify Ms. Alvarado,as a Spanish/English interpreter.
2. The testimony is relevent and based on a reliable foundation
(Ms. Alvarado,admitted under oathpseveral times on record,she
had to circumvent both questions and answers in the forensic
interview,not once,asked that the question(s),be repharsed. If
i\q
9.

expert's scientific evidence is Not,reliable,of all the evidence,
the trial court,refused to view the forensic video,that showed
exculpatory evidence.
The gpbinson factor,cannot always be used in assessing an expert's
reliability,however,there must be some basis of an opinion offered
to show reliability,expert testimony is other wise unreliable.
"There,is simply to great of an analytical gap,between the date's
and the proof offered.
A reviewing court is not required to ignore gaps in an expert's
ipse dixit(some thing alleged not,yet not proven) or bad assurance
of validity,"does not suffice". The underlying data,it should
be independently evaluated in determining whether an expert's
conclusion's are correct,rather whether the analysis,the expert
used to reach those conclusions were therefore admissible.
The trial court refusal(without opinion) to review the video
and determine whehter or not it,was made in accordance with the
Daubert,and other rules of evidence.pursuant to the Tex.R.EUid.
Rule 702,before admitting expert testimony,trial court must be
satisified.that three condition's are met:
1. Knowledge,skill,experience,training and education of the alleged
expert/interpreter that conducted/assisted in the forensic inter­
view, acknowledge if the witness was qualified as an expert.
2. Whether the subject matter of testimony was appropriate(defense
not allowed to have expert interpreter review said video of inter­
view) sof.fact finder could be assured thattthe topic of forensic
interview question's and answer's were correct and not simply
adding or subtracting original information which brought bias
and prejudice for the State conviction,(after all interpreter
is directly employed by the Hunt County Sheriff's Office) she
may have had her own motive.
3. Expert testimony must demonstrate by clear and convicing
evidence(trial court did not allow a comparison test with defense
expert interpreter from the same field).
When addressing field of study outside hard science,that are
based primarily on experience and training as opposed to scie&iff.ic
methods,this requirement still applies. See,E.T.Du Pont de Nemous
& Co. v. Robinson,923 S.W.2d 549,"It is especially important,that
the trial court/Judge'scrutinize proffered evidence."
In light of the increased use of expert witnesses),and the like­
lihood of prejudice impact of their testimony... the judge,has
a ^heightened responsibility to ensure that the expert testimony
shows some indicta of reliability. See,In Re Air Crash Disaster
795 F.2d 1234.
Reliability Standards:
Rule 702,Tex.R.Civ.EMdi!,A; reliability standard npting that the
"goal of routing out,bogus expert's opinion's,e.g.2. Goode Supra
§702-5 @ 37-38,from Texas court's is laudable.See,Sutton,art.
MU opinion and expert's testimony in Texas Rules of Evidence
10.

handbook, 30 Hpuston,L.Rev, 797,842(2d ed, 1993), stating the
reliability,rather than general exceptance is appropriate stand­
ard for dealing with problems related to expert testimony.
The Court granted Du Ponts.application for writ of error to resolve
the conflect. The court ©frappeals by determining the appropri­
ate standard addmission of expert testimony,DuPont argued(now
appellant),"This trial court was not,a gatekeeper of the alleged
expert witness testimony,nor it's evidence,but rather a spectator,
who seemed rendered powerless,by the State Attorney,and did not
to insure the integrity of this trial'.'.
Appellant as in Du Pont,urges this court to adopt the "Reliability
Standard" similar to the standard applicable to Rule 702 of the
Federal Rules of Evidence and the Texas Rules of CiVil .liVidence.
"Madfflissible under Rule 702" See,Kelly V. Stateg24 S.W.2d 572.
quoting,Krieling,scientific evidence;providing the lay trier
comprehaensive and reliable evidence needed to meet the rules
of evidence.32 Ariz.L.Rev.915,941-42,1990) .
Scientific evidence that is" Not grounded)' in method and proce­
dure is no more than a subjectivebelief and unsupported spec­
ulation, it's reliability is "Inadmissible under rules dealing
with expert opinion", Rules of Civil Ei)±dehceo702, the facts that
an opinion was formed solely for the purposes of litigation,"does
not automatically render reliable'.'
However,opinions formed solely for the purposes of testifying
are more likely to be bias and prejudicial to gain a particlar
result. See,Lubojasky v. State, 2012 Tex.App.Lexis 8760.
There are several factors that cause a trial court's determination
of reliability,including but not limited too;
1. The underlying scientific theory and technique are valid by
relevent scientific community(Ms.Alvarado was not educated,skilled,
trained or experienced to assist or interprete in a forensic
interview with ia 'Child abuse victim.
2. The qualifications of the alleged expert testifying.
3. No existence of documentation of education,skill,training,
supporting Ms. Alvarado's scientific knowledge or technique was
presented as an alleged interpreter.
4. Potential rate of error,is such a large magnitude,which is
unfair and bias to this accused.
5. Availability of other expert's to evaluate this interpreter's
testimony/technique was available and this court did not allow
review.
6. The clarity with which the underlying scientific theory can
be explained in court.
7. The experience,skill,training of the person who applied the
technique.Tex.R.App.art.33.1 (A).States: "To preserve an error
for appellate review,party must preserve a spcific and timely
request motion or-mistrial and running objection were timely,
requested/filed,appellant was denied with an adverse ruling.
11.

v\b

See,Muellar V.Bran,2013 Tex.App.Lexis 176,trial court must,
"Ensure that those-who purpose to be expert's,truly have the
expertiseconcerning the actual subject matter about which they
are offering an opinion.
Ms.Alvarado,is self proclaimed expert,"She did not,qualify as
an interpreter/expertShe only had a generalized experience,
■ in this specialized field,this is not enough to officially qualify
as an expert witness'.' I should think not...
This brought grave harm an
’ariddprejidice to this accussed.
Testimony from an alleged expert ? "Whom simply does not,qualify
as an expert ? please. As if did not raise above mere hearsay
speculation or conjecture. This offers no genuine assistance
to'the fact finder. Defense Counsel?; afsked/requested this court
to review the video for admissibility(it refused),with no opinion,
for the refusal. This is a case of overt "Abuse of Discretion','by
this trial court,in disrespect of the Fifth and Fourteenth Amend?
ment of the United States Constitution of Due process and Equal
Protection of the law.
HEARSAY GROUNDS:
In,Long v.State,800.S.W.2d 546(Tex.Crim.App.1990).
Appellant objected on hearsay grounds,requested mistrial. Appellant,
complained on appeal that complainant's testimony,to Char Ralph,
(Forensic interviewer)via Claudia Alvarado,alleged expert inter­
preter,was hearsay and should not have been admitted as trial
court failed in it's duty to conduct a hearing ofadmissibility
to determine the testimony is reliable in accordance with rule
702yof the Texas Rules of Evidence.
This mandatory requirement,of V.C.C.P.art.38 072,
This reviewing court should hold that the defendant's objection's
are sufficient to preserve errorfs),for review.
Therefore,this court should address these merit's.of his point
of error,in his petition. Appellant assert's that art.38.072 .S.CiE.P.
is applicable as his conviction was obtained pursuant to the
V.T.C.A. Penal Code art.21.02 "Continuous Sexual Abuse Against
A Child Younger Than 14 Years of Age'.'
Appellant further argues that because art.38.072,specifically
address(es)^Hearsay statement's of Children^his objection of
hearsay matter should be invoked,in it^s procedure.
Appellant further argues that because art.38.072,his specific
objection,pursuant to this statute and this court should not,
deprive him of his review,as was due by the lower court's.
The trial court immediately overruled the objection,this automatic
cally removed the burden from the State to show hearsay evidence
(hearsay statement's)were admissible,instead of immediately c
convening for a hearing as required by the statute. The State
was not required to show cause whether any exception was applic­
able to show the State complied with the provisions of this statute.
Appellant argues "Not only non-complaince;' with the statue,but
that said testimony is "hearsay and not admissible'.'

12.

This argument comport's with the appellant's objection's,brings
the error(s),of the greatess magnitude. This Honorable Court
of review should grant,Habeas Corpus relief for a new trial,due
to unfair bias and prejudice and abuse of discretion.
EXPERT TESTIMONY:
Appellant complains about alleged expert testimony and the intro­
duction of the non-interpreted forensic video. Appellant also
disputes this interpreter's reliability.
In,Weatherred v. State,15 S.W.3d 540(Tex,Crim.App.2000);Bryant
v. State,340 S.W.3d 1,11(Tex.App.-Hpus.1st.Dist.2010);Nemo v.
State,970 S.W.2d 549,561(Tex.Crim.App.1998);Terraze v. State,
4 S.W.3^720.72~^(Tex.Crim.App.1999);Russeau v. State,171 S.W,3d
871,883(Tex.Crim.App.2005);Cabrera v. State,2014 Tex.App.Lexis,
7033. As case under review,expert(s),testified regarding a wide
range of possible)(not probable) cause(s),and behavioral changes,
none specifically noted other than possible constepation,it was
also testified as how bther:children reacted about being abused,that
children remebered and forgot detail's. The difficulties of a
child to testify about sexual abuse in front of the alleged abuser,
Nurse Anglin,alleged her so-called opininon's in general terms.
OUTCRY STATEMENT:
Appellant asserts that the trial court erred in allowing video
and testimony of Claudia Alvarado(alleged expert translater)
Ashsha Colin(CPS),Char Ralph(Forensic Interviewer),regarding
complaint's outcry statements which did not comport with the
indictment or jury chargenor other allegations of art.38.072,
TvC.C.P.>art.38.072 state's:"allowing a hearsay statement from
chi,Id; abuse victim to be admitted as evidence if, the trial court
fihd's"In a hearing conducted outside the jury that the statement
is reliable"(Appellant was not allowed interpretation before
the jury by defense expert interpreter)about ,time and date,or
rebut issues of alleged statements.
See, Gregory t). State, 56 S.W.3d 177(Tex.App.-Hous.-14th dist.2001)
Tex.Code Crim. Proc. art.38.072,subsec.2(b),(2j,(b)(Vernon Supp.
Pamphet 2001).
1. Violation of Appelant's right's to a fair and impartial trial
of Due process,-Equal protection of Law,under the Fifth and Four­
teenth Amendment.
2. Accused denied right's to confrontation under the Sixth
Amendment of the United States Constitution.
This Appellant,objected numerous times about proffered testimony
during the hearing outside the presence of the jury each time
trial court abused it's discretion,allowing Nurse Anglin,to
testify as an expert in complaihant's case.
1. Nurse Anglin,has NojMedi'cal license or Doctor's degree.
2. Unlike Physican's she cannot,render Medicel treatment nor
Medical diagnoses.
3. Nurse Anglin,lacks Medical License to prescribe treatment
under a Physican's order and authority, she did r\ot request/rec­
ommend further examination(s).from Licehsedpphysican.
13.

found'No TruamaV
Nurse Anglin,R.N • / S.A.N.E • / States: "She
_______________________
Which conclusively denies,that any "Continuous Sexual Acts of
Assaultyhad occurred as alleged'.1
Nurse Anglin,based part of her theory on the history recorded
from patient's diagnoses and treatment. Nurse Anglin, states'!:'
"She performed a detailed gential examination,in a Lithotomy
position and conducted a hymenal rim examination,no use of a
colposcope,which magnifies the tissues and enables the examiner,
to make a conclusive findings of abrasions,tears or any other
Abnormalities during, her examination'.' None were found.
This reviewing Court should grant Habeas Corpus relief and remand
for a new trial.
According to"Niirse Practicing Act(NPA), Texas Nursing Association
guide of the Texas Nursing Practicing Act,NPA.3.6(4th Ed. 1999,Tex.
Occ.Code Ann. § 301.002(2),(Vernon pamphet 2001).
it is said using above case law,The Texas Supreme Court has defined
"Medical Diagnoses,As an Analysis of the cause of nature of a
patient's condition'.' Texas Employer's Ins. Ass'n.v. Sauceda,
636 S.W.2d 494,498(Tex.App.-San Antonio,1982,no writ). Neither
the Texas Supreme Court,The Board of Nursing Examiner's,NPA,
had defined "Nursingr Diagnose's...According to the Board Nursing
Examiner's Standard of Professional Nursing a "Nurse shall make
a Nursing Diagnoses"which serves as the base for strategy of
care)'which is...':'To accurately and completely report and document
the client's Status including sign's,symptom's and response's
to collaborate with the client's health care'.' 22 Tex.Tex.Admin.Code
§ 217.11(2),(b),(4) and (2),(2001). Board of Nursing(BNE)licensure,
Peer Assistance and practice.Id.
DAUBERT CHALLENGE:
The Daubert Challenge apply it to the case under review,Nurse
Anglin,R.N.,S.A.N.E.,testimony regarding alleged penteration
and it's accompying allegation's found "NO TRAUMA",yet the State
continued to allege the penetration occurred,to the anus and
complainant's sex organ'.'
For this testimony to be considered admissible or even reliable,
it must be based on"scientif ic findings, and it's conclusion's1.'
Is this NOT,what the State's witness/expert"Sexual Assault Nurse
Examiner" Nurse Anglin's job is ? She testified she found"NO
TRUAMAV to sustain these allegation's ?
Nurse Anglin is said to have the knowledge,skill,experience,otherwise,
she could not be an expert for the State,There must be three
issue's to meet this criteria:
1. A underlying scientific theory and it must be valid;
2. The technique applying:*this theory must be valid;
3. The techmnque must have been properly applied on the occasion
in question.
Appellant agrees with all of the above. All findings and conclusion's,
"Were Negitive1.1 "NO TRUAMA, NO FINDINGS r*o sufetain ".fefae ^laim-'df
"Continuous Sexual Abuse Against a Child Younger Than 14 Years
of Age'.'^

14.

Nurse Anglin,is said to be the State's expert witness,during
her physical examination of said complainant's person,her sexual
organ,including her anus, it was said that the complainant's
anus retracted in an abnormal 20 seconds ?
That this is an abnormality for this child andor children of
this age ? Nurse Anglin,is not,medically qualified to make this
type of diagnoses or medical conclusion,although it was explained
away by "There could have been a stool there'.' All issues are
conjecture. See,Hartman v. State,946 S.W.2d 60 (Tex.Crim.App.1992);
Daubert v. Merrel Dow Pharm. Inc.,509 U.S. 579,113 S.Ct. 2786.
l-o L.&a.za 4by(l99j).

Under Texas Rules of Evidence, 104 (Av) , (CO , Rule 702.
The.proponent must establish all criteria,before the court,may
admit the testimony/evidence, The Defense/Accused agrees,with
all three criteria was met by the State,and it's Nurse S.A.N.E.
expert "Proved nothing)' had taken place. As alleged in the indictment
of the Texas ipenal code art. 21.02 "Continuous Sexual Abuse
Against a Child Younger Than 14 years of Age'.'
The rule reflect's trial court,had determine the proffered expert's
testimony of Nurse Anglin,R.N.,S.A.N.E.,was reliable(although
no hearing was conducted outside the presents of a jury).
The Texas Rules of Criminal Procedure,has no notice of pretrial
discovery requirement's tailored to use of evidence based upon
scientific theories or techniques. But without notice of.whgt's coming,
,counsel for the defense can hardly obtain "Any prior court app­
roval for fund's to pay for the defense expert's'.'
Provision's for "Full;,Disclosure)1 the opportunity to re-examine
the evidence(need of expert's),the appointment of defense expert(s),
is ..critical,of the type procedure the majority advocates.
See,Giannelli,supra at 1254.
THE BLACK LETTER OF THE LAW:
A person"May not practice Medicine in this State,unless that
person,holds a license to practice Medicine" issued under subtitle
Texas Occ.Cbde'Ann. § 155.001.
A person is reqiured a "License to Practice Medicine',’meaning:
"The Diagnoses,Treatment and offer of Treatment of Medical or
Physical Disease(s),or Physical deformity's,injury by any system,
or method,attempt to affectively care or cure these conditions'.'
Id.§ 151.002.
PROFESSIONAL NURSING:
The preformance for compensation of an act that require's"sub­
stantial specialized judgment and skill,'however, this term does
not include act's of"Medical Diagnoses or Prescription of Ther­
apeutic and or Corrective Measure's." id. at art.301.002(2),Tex.
Occ.Code Ann. Clearly a Professional Nurse,is an expert in certain
area's as duly noted,equally clear,ordinarily,a Nurse is "Prohibited
by Law",from unilaterally making a diagnoses.
"Ordinarily,diagnoses and prescribed treatment are exclusively
realms of a licemse Physician,in this case in review Nurse Anglin,
was admitted to testify as an expert witness. Her diagnoses was
15.

6°

allowed as evidence,she testified that "NO TRAUMA" was discovered
or apparent in this case,neither did she request review fron
a Licensed Physician to conduct a follow-up to confirm or deny
her conclusion's.
HEARSAY OBJECTION'S"
Appellant complain's trial court erred in overturning hearsay,
objection's to statement's of both the complainant's(Kay & Nancy),
specifically appellant complain&d that Ms, Alvarado,"Does Not,
JioJLd a License or certification,educational dearee.or. the skill,
jieecfecT to_ properly assist in a forensic interview of a Child
sexual"abuse case. Ms. Alvarado,under oath several times admitted
■"She had to_ ClYCTiftive n t question's and answer's to gather intended
result's. Not once was it purposed by her to have Ms. Ralph,
repharse the question's to remain within the range of the interview.
No other interpreter Was premitted by this court to interprete
the submitted video interview.
Nurse Anglin,may be certified by the Attorney General's office,
however,that office is NOT,a.licensing board,nor a major universitythat may hand - out::Medicial degree's to practice medicine,
nor is it a legislature body to create and pass it's own laws.
The Attorney General's office is simply a Law enforcemwnt agency
of the Statd,that solely enfoces the law,not to circumvent existing
laws on it's own merit.
Appellant continue's to argue,trial court erred in judgment by
allowing testimony of CPS investigator,forensic interviewer as
neither had true personal knowledge of the fact(s).
CPS interviewer,due to her failure to conduct a proper invest­
igation (self-admitted)in*the record. Ms. Alvarado,failed to
conduct proper interpretation to Ms. Ralph's questions as per
rule 604,Texas Rules of Evidence for Interpreter's,she selfadmitted "She has no special skill,experience,training as an
interviewer/interpreter,to assist a forensic interviewer for
- a Child sexual abuse case, per TexasR.Eilid .rule 702 , See, Vela- v.
State,209 S.W.3d 128,131 (Tex.Crim.App.2006).
The qualification inquiry simply involves two parts:
1. Whether withess,interpreter has sufficient background,skill
in that particular field;
2. whether background,skill,goes to the very matter to give an
opinion.
In Brucia v. State,case "Special worker,interpreter,obtained
a Bachelor degree,Master's degree,in social work,she was a licensed,
social worker of the State,she attended continuing education
classes to maintain her license,dispite trial court's wide range,
of discretion(room for abuse),the alleged interpreter expert
does not even come close to other State witniess(es),how. can
it be said that Ms.Alvarado,is an expert interpreter,qualified
to conduct interprete child abuse cases,with no formai train­
ing, education?
Ms.Alvarado,is employed as a background clerk,not hired as an
official interpreter for the Hunt County Sheriff's office.
16.

6\

This totally violates,this accused Due process right's,his right
to confrontation of the State witness(es)^cruel and unusual punish­
ment, right to a fair and impartial trial,the Fifth and Fourteenth
Amendment's and the laws of Equal Protection.
This court certainly acted outside the zone of reasonableness.
Appellant assert's that witness testimony/video,should have been
excluded on the grounds of reliability and relevance.
Appellant further asserts that Ms,Alvarado, and Ms.Rdiphts testimony
are unreliable,as Ms. Ralph,did not speak to complainant directly,
and it's therefore hearsay.
In,Jordan v. State, 928 S.W.2d 550,554-r55 (Tex. Crim.App. 1994;
Rose^ v.State,2 S.W.3d 225,234(Tex App.-Austin 1999).
To be Considered reliable evidence derived from Spanish/English
testimony,three criteria must be satisified:
l..The underlying theory must be vaild;
2. The technique applying the theory must be valid;
3. The technique "Must have been properly applyied'.'
This court must consider the following factor's in evaluating
reliability:
1. Acceptance by relevent scientific community;
2. Qualifications of the expert;
3. Literature potential concerning the technique;
4. Potential rate for error of the technique^*
5. The availability of other expert's;
6. The clarity with which the underlying theory or technique
can be explained in the court;
7. Experience and skill of the person applying the technique;
There must be a fit between subject matter and alleged expert's
qualification's. Thus the proponent must establish that the expert
has skill's,experience and training with the respect to this
specific issue before the court,Id.
During Voir dire,Defense Counsel questioned Ms. Alvarado,alleged
expert interpreter the State,about her education and training
Ms. Alvarado,the alleged interpreter admitted she"did not have
any formal or special training at the time and had to circumvent,
question's and answer's to get the proper response".
Ms. Alvarado,testified "She was not a professional interpreter,
and only conducts interpretations on occasions'.'
That her primary duty(s), with the Hunt County Sheriff's office,
is a "Background Clerk',1 her testimony as an interpreter is hear­
say, thus void... Rule 702,provides "an expert must be qualified,
by skill, experience, training, education',' This lady is simply His­
panic, she is not qualified,to conduct or assist in a forensic
interview of a "Child of an alleged sexual abused case.
The questions and answer's were circumvented,misleading,bias,
prejudicial,and caused a great miscarriage of justice,which is
the very reason this jury came back with a guilty verdict and
3 life.sentence,No doubt this appellant was denied a fair and
impartial trial. This case should be reversed and remanded.
17.

fa

AGENTS OF THE STATE/DISCOVERY PURPOSES:
Wilkson v. State,173 S.W.3d 521(Tex.Crim.App.2005).
"All State employee's are clearly under the color of law,making
a person an agent of the State'.' See, Estelle v. State,451 U.S.451,
101 S.Ct. 1866(1981); Mathis V. United States,391 U.S.l • / 88 S.Ct.
1503(1968). While neither case fit neatly into normal miranda
"Custodial Intergation',' by an agent of law enforcement, they are
premised upon the fact that the primary purpose of the State
Agent's Interview;' be it CPS(Child Protective Services), CAC (Child
Advocacy Center),it's purposesremain,they work in conjunction
with law enforcement to gather evidence for criminal prosecution,
See,2 W.L.A. Fave and J. Isreal,Criminal Procedures, § 6.10(c),
at 623,24(1991).
Once parallel paths of CPS,CAC,and police coverage,they become
State Agent's,beit they afe conduting an interview/investigation,
for a criminal offense in tandum at this point a CPS,CAC,worker,
be it a forensic interviewer,contract S.A.N.E.(Sexual Assualt
Nurse Examinor,therary counselor or any/all can be viewed an
extension of law enforcement,without arresting powers.
The term agent/agency denotes a consensual relationship,which
exist between the two parties where one acting on behalf of
another,a repressentIveIn,Cantu v.State,817 S.W.2d 74.75,(Tex.
Crim.App,(1991).In Cates the evidence gathered by CPS/CAC workers,
interviewer ' s, interpreter;' S, A, N.E .Nurse, were the instrumental
agent of the State,to convict the accused. Although it may be
Jiffieult to determine where the two paths meet,they are nonethe­
less, now paraell with one another and converage on this particular
case.
This reviewing court need only to review the record.
This record shall show that the police,prosecutor’s used CPS,
CAC workers/agents,contract employees to interview and accomplish,
what the police could have lawfully accomplished themself’s,
but did not. In sum,law enforcement,State prosecutor,used CPS,
CAC employees/contractors as appointed agents.
This reviewing court must examine the record concerning the
interview’s,action's,and preception,of "What is the primary
reason's for the interview's,and it's question's and response
of the alleged victim ? It Ls to gather evidence/testimony/
recordings,of whether a crime was committed against this indivdual,and/or another. So,it can be used for criminal prosecution.
The answer is "YES" to both questions, perhapis;-not all,but certainly
a large majority,then not. Are used in assisting the States
prosecutor7s office to lead to a person's arrest and conviction.
In,sum, did the interviewer/interpreter believe that she was
acting as a representive of law enforement ? "YES".
One witness/contract employee of the State Attorney General's
Office,S.A.N.E. Nurse Anglin,R.N.,is certified by the State
Attorney Generl' s office to conduct "Sexual Assault Examinations;'
She is an agent of the State under the color of law. She is given,
authority by the highest law enforcement office to act "As a
Nurse Examinor,for the office's of Child Protection Services
Ghrjl'ds Aid vocacy Centers to conduct Sexual Assault Examination,

18 .

53

on Childern whom have made an outcry of sexual abuse.
The State has an obligation to turn over Discovery/Brady material,
In,Adamev^_State,180 S.W.3d 341(Tex, App.-Corpus Christi2005).
There are"Two typesof Sta te agents "under the color of law, by
any definition,"State Agent(s),are also contracted by the Attorney
Generl's office to conduct specific acts on their behalf,making
them State agent's. See,Wilkerson v. State,173 S.W.3d 530(Tex.
Crim.App. 2005),Authority arises through acts of participation
and acquistion by the prinicipal law enforcement which clothes
the agents indica of authority. See,National Bank,N.A. v. Northland
922 S.W.2d 9 50,953-53 (Tex. 1996) (perccurianTT South'Title Ins.
Co. v. Puling,522 S.W.2d 425,428(Tex.1977).
If there is some evidence(No criminal charge could be brought
forth otherwise)that the law enforcement acted in some manner
to cloak the third person with authority to interrogate an alleged
victim on their behalf and response,therefore communicate to
all parties of law enforcement,would any reasonable person believe,
this interview was not made by an agent of law enforcement of
the State ? "NO".
REVERSIBLE ERROR DISCOVERY?
The State has a. Constitutional duty under the United States and
Texas ConstLtution,to disclose evidence favorable to this accused.
See,Micheal Morton Act(S.B. 1161),Brady v. Maryland,373 U.S.
88(1963). Although the Micheal Morton act(S.B.1161) was not in
effect till January 1,2014,s£race it's incertion (Brady vvMaryland
1963) article 39.14 of Code of Criminal Procedure of Texas,has
regulated discovery in Criminal cases,some more prominent,fcom
the past which involved prosecution who were not forth coming
with exculpatory evidence.
Micheal Morton a most prominent example,thus formed S.B.11611,which
was favorable,when used effectively.to make a difference between
conviction and acquittal,thus to show reversible error,accused
must show that:
1. The State failed to disclose evidence(A prior video tape);
2.The State withheld evidence in favor of the accused;
3. Evidence withheld was evidence/material with a favorable
probability that had evidence(interpretation of video,had it
been viewed the jury out come would have been different).
See,Thomas v. State,841 S.W.2d 399,403(Tex.Crim.Aopl999); Pena
v. State, 353 S.W.3d 797,809(Tex.Crim.App.2011).
ABUSE OF DISCRETION:
Owens v. State, 331 S.W.3d 696,2012 Tex.App. Lexis 7922.
Trial Court abused it's discretion by not finding a particular
witness(Dr. Pena)Phychistrist as the proper outcry witness under
T.C.C.P. Ann. art. 33.072 § 2(A), rather than Marisol(complainant's
aunt) CPS investigator,school counsel.
The record indicates that the alleged complainant did not,make
an outcry to any one else,during her initial interview,except
19.

for Dr. Pena. "He is not listed,as the primary outcry witness"l
The State is required to provide exculpatory information to the
accused in a?timely fashion and manner.
The Due Process and Equal protection clause of the Eifth and
Fourteenth Amendment of the United States Constitution are
violated when the Stated agent's do not disclose the Brady and
Micheal Morton material to the accused that creates a probability
sufficient enough to undermine the confidence of the trial out­
come .
In,Thomas v.State,841 S.W.2d 404;Pena v. State,353 o.W.3d 797(381
S.W.3d 701)(Tex.Crim.App.2011)states: "E^Tdence withheld by State
prosecutors possible Brady material,should there be a reasonable
probability that had this evidence been disclosed tha outcome
of this proceeding would have resulted in acquittal a not guilty
verdict. See,Wyatt v. State,23 S.W.3d 18,27(Tex.Crim.APP.2000)
(quoting United States v. Bagley,473 U.S.667,105 S.Ct.3375(1985).

PRAYER
Wherefore all premises considered applicant request this Honorable
Court of Appeals to reverse and remand for a new trial, tljat his
Habeas Corpus petition may hereby be GRANTED,So help me GOD.

UNSWORN DECLARATION
I,EX Parte Julio Torres Palomo,T.D.C.J. # 1923341, hereby declare
that I am currently "incarcerated at the William G. Me Connell
Unit 3001 S. Emily Drive,Beeville,Texas 78102.
I further declare under the penalty of perjury of this State
the foregoing statement’s are true and correct to the best of
my knowledge and ability. So help me GOD.
Executed on this
October 2020.

date ,6'f

Respectfully,

1 '
Jialio T. Palomo
# 1923341
Me Connell Unit
3001 S. Emily Drive
Beeville,Texas 78102

20.

REASONS FOR GRANTING WRIT
TO THIS HONORABLE COURT:
I/JULIO TORRES PALOMO/ pro-se plaintiff/come now before this
Honorable Court/as a simple layman/Who has been dealt a mis-carriage
of .Justice,as the evidence has and will show... The evidence
that has been brought before this convicting court/was truly no
evidence at all...
It was believed by a jury of my alleged peers/What the State
(Texas) had brought forth,that I allegely,"Continuously Sexually ■
Assaulted my girls".
I certainly beg to differ,as the State1s leading witness "Sexual
Assault Nurse Examiner, Ms.Anglin,RN.,certified;by the State of
Texas,had performed the examinations and found "NO POSITIVE RESULTS"
in and of her examinations and testified to this effect.
I was told from the beginning that I was innocent until proven
guilty.with the evidence presented by the State.
State's witness Nurse Anglin,RN./testified that she found "NO '
EVIDENCE TO SUBSTANTIATE THE STATE*S CLAIM,OF ANY SORT OF SEXUAL
assault

~?

'

“

—

■ ■■'

.... ■

'

7"

,

I understand by Texas law that the jury is the fact, finders and
free to believe anything and everything presented by; the- State
or nothing at all,and it seems that they were mislead by the
State prosecution,in a miscarriage o^ Justice.
I am a Mexican National,who like other's came to this country
in attempt to make a living for my' family and self,. It is my
misfortune I am very disliked by my: in-laws,so much so...they are
willing to lie and accuse me of being inappropriate with-my girl's.
That due'to such hate and perjudice...my girl's were forced to
fulfill these lies against me,by their aunt Marisol.
The record reflects the first outcry witness is the Psychiatrist
Dr.Pena,but the State had brought the girl's aunt Marisol to be
the first outcry witness. Dr.Pena was not brought forth to testify.
I am most certain that I need not go into ,detail as to how this
Nurse Examiner is suppose to do her job or be an expert,as it is
the court's obligation and duty to conduct a hearing as to whether
she and other's,whom profess to be expert's,are.indeed expert's,
in and of their field of expertise and who is not...?
I pray this Honorable Court,shall Grant me relief and overturn ray
case back to the original trial court,and remand my case.
So help me God....

Respecfully,

pg.21.

JURISDICTION
[X] For cases from FEDERAL COURTS:
The date on which the United States Court of Appeals
decided my case was 14th day of September 2017.
•i [x] Petition for rehaearing was timely filed in my case.
’ [xj A timely petition for rehearing was denied by The
United States Court of Appeals on the following date:
1 September 2017.
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).

[x] For cases from STATE COURTS:
The date on which the highest state court decided my case
was 15th day of January 2016.
A copy of that decision appears in Appendix.
[x] A timely petition for rehearing was therefore denied
on the following date: 12-30-15,and a copy of the order
denying rehearing appears in Appendix.
The[jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

P&Ury*^> 4r<feSsfj(

/

)7

OPINION
The United States Supreme Court cautioned that"It is not the
Appellant Court,function to determine guilt ot innocence."
66'.S.Ct. 1247.
The Supreme Court stated: "We are not concerned here whether,
there was sufficient evidence on which petitioner could have
been convicted without the evidence 'complained about'.'
The question is whether there was a reasonable possibility that
the evidence adduced in trial,or the lack of it...Id. 84 S.Ct.
231
In,Jackson v. Virdina,99 S.Ct. 2781(1979).
A challenge of a State conviction brought under Habeas Corpus
statute may require the federal Court to entertain a State prisoner's
claim that he is being held in State custody in violation of
the United States Constitution or the laws of this State.
The Texas Supreme Court,has defined "Medical Diagnoses" as an
analysis as a cause of nature of a patient's condition.
The Texas Supreme Court,Board of Nursing,defines "Nursing Diag­
noses, as "A Nurse shall make ;JNursing Diagnoses;which serve as
the base of stratey of care,which is to accurately and completely
report and document the client's status,including sign's and
sympton's and responses,to collabrate with the client's health."
22Tex. Admin.Code § 217,11(2),(b),(4),and (2),(2001$.
In,Motilla v. State,38 S.W.3d 826(Tex.App. Hous.-14th dist.2001;
78 S.W.3d 355(Tex.Crim.App.2002).
This Court determined appellant's issues were meritous and it
must conduct "Harm Analysis" under the Rules of Appellant Procdure,Rule 44.2(a).
In,Clewisv. State,922 S.W.2d 129,130.
This court is Constitutionally empowered to review the judgment
of this court to determine factual sufficiency of the evidence
used to establish the element's of the offense.
The Corpus Christi Court of Appeal's,978 S.W.2d 703)
reversed and remanded findings of insufficient evidence
The Appellant Court has a Constitutional authority to conduct
a factual sufficiency review,from the evidence which is fact­
ually unsufficient,that is so weak to be clearly wrong and mani­
festly unjust. That the only recourse is of improper application
of the factual sufficency review,which lead to reversal of this
court of Appeals decision and remand back to trial court for
a new trial.

pg40 •
19

CONCLUSION

The petition for Writ of Certiorari should be granted.

Respectfully Submitted,

Palomo
# 1923341
Me Connell Unit
3001 S.Emily Drive
Beeville,Texas
78102

Date: /f)j>/0, ?J>lD

I/JULIO T. PALOMO,HEREBY CERTIFY^DECLARE UNDER THE PENALTY
OF PERJURY THAT I HAVE MADE SUCH ^CORRECTIONS THAT HAVE BEEN
REQUESTED OF ME BY THE CLERK'S OFFICE OF UNITED STATES SUPREME
COURT,TO THE BEST OF MY ABILITY AND KNOWLEDGE,SO HELP ME GOD...

A
^

33 <//

57
pg.fJ*

